         U.S. Department of Energy
         Office of Inspector General
         Office of Audits & Inspections




Evaluation Report

The Department's Unclassified
Cyber Security Program - 2012




DOE/IG-0877                       November 2012
                                  Department of Energy
                                    Washington, DC 20585

                                        November 8, 2012

MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                  INFORMATION: Evaluation Report on "The Department's
                          Unclassified Cyber Security Program - 2012"

INTRODUCTION AND OBJECTIVE

As the use of information technology resources continues to expand, the number of cyber
security threats against Federal agencies has also increased. In fact, Federal cyber security
officials have warned that the number of cyber attackers has increased and that the Nation's
defensive capabilities need improvement. Consistent with the nearly twentyfold increase on the
number of attacks on the Nation's infrastructure from 2009 to 2011, the Department of Energy
reported nearly 3,000 cyber-related incidents over the past 4 years. To help mitigate the risks
posed by such threats, the Department expended significant resources in Fiscal Year (FY) 2012
on cyber security measures designed to secure its information systems and data that support
various program operations.

The Federal Information Security Management Act of 2002 (FISMA) established requirements
for all Federal agencies to develop and implement agency-wide information security programs.
In addition, FISMA directed Federal agencies to provide appropriate levels of security for the
information and systems that support the operations and assets of the agency, including those
managed by another agency or contractors. As required by FISMA, the Office of Inspector
General conducted an independent evaluation to determine whether the Department's
unclassified cyber security program adequately protected its data and information systems. This
memorandum and the attached report document the results of our evaluation for FY 2012.

RESULTS OF EVALUATION

The Department had taken steps over the past year to address previously identified cyber security
weaknesses and enhance its unclassified cyber security program. Specifically, we noted that the
Department and its National Nuclear Security Administration took corrective actions to address
40 of 56 weaknesses identified during our prior year evaluation. In addition, the Department
initiated a transition to a more risk-based approach to securing its resources, including efforts to
enhance continuous monitoring processes.

Further, in 2012, the overall number of identified vulnerabilities decreased to 38. While this is a
positive trend, our current evaluation found that the types and severity of weaknesses continued
                                            2

to persist and remained consistent with prior years. The composition of the 38
weaknesses included 16 previously identified weaknesses that remained uncorrected
(including 4 from FY 2010) and an additional 22 cyber security weaknesses identified
during our FY 2012 evaluation. These weaknesses involved problems with access
controls, vulnerability management, integrity of web applications, planning for continuity
of operations and change control management. Specifically:

   •   We discovered deficiencies at multiple locations, including Headquarters, related
       to weak access controls, including a lack of periodic management reviews of user
       accounts, inadequate management of logical and physical user access privileges,
       use of default or weak username and passwords and a lack of segregation of
       duties between privileged users;

   •   Also, we identified weaknesses related to vulnerability management that could
       have allowed unauthorized access to systems and information. Specifically, we
       found desktops and network servers and devices that had not been updated to
       resolve known vulnerabilities and/or operating systems that were no longer
       supported by the vendor;

   •   We found at least 29 web applications, including those supporting financial,
       human resources and general support functions that lacked adequate validation
       procedures. This situation could have been exploited by attackers to manipulate
       network systems;

   •   Although one location reviewed had progressed in its development of a business
       continuity/disaster recovery plan, it still had not implemented corrective actions
       and had postponed development of an overall business impact assessment – a key
       element designed to determine the consequences of a disruption of services; and,

   •   Change control management weaknesses were observed at one location.
       Although the site had developed an overall configuration management process,
       we found that changes occurred that were not consistent with this process.
       Effective change control management can help ensure that computer applications
       and systems are consistently configured to prevent and protect against
       unauthorized modifications.

The weaknesses identified occurred, in part, because Department elements had not
ensured that cyber security requirements were fully developed and implemented. In
addition, programs and sites had not always effectively monitored performance to ensure
that appropriate controls were in place. For example, we noted Plans of Action and
Milestones (POA&Ms) were not always effectively used to report, prioritize and track
cyber security weaknesses through remediation. Specifically, POA&Ms excluded half of
the findings identified during our prior year review and 39 percent of milestones had
passed projected remediation dates, including many that were more than 1 year overdue.
Without improvements to its unclassified cyber security program, including
implementation of effective continuous monitoring practices and adopting processes to
                                             3

ensure security controls are in place and operating as intended, there is an increased risk
of compromise and/or loss, modification and non-availability of the Department's
systems and the information. As such, we made several recommendations that, if fully
implemented, should help the Department strengthen its unclassified cyber security
program for protecting information systems and data.

Due to security considerations, information on specific vulnerabilities and locations has
been omitted from this report. Site and program officials were provided with detailed
information regarding respective vulnerabilities identified and, in many instances,
corrective actions were initiated.

The Department concurred with the findings and recommendations and agreed to take
necessary corrective actions. Management's comments and our response are summarized
and more fully discussed in the body of the report. Management's formal comments are
included in their entirety in Appendix 3.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Acting Under Secretary of Energy
      Acting Under Secretary for Science
      Under Secretary for Nuclear Security
      Administrator, Energy Information Administration
      Chief Information Officer
      Chief of Staff
EVALUATION REPORT ON THE DEPARTMENT'S UNCLASSIFIED
CYBER SECURITY PROGRAM – 2012


TABLE OF
CONTENTS


The Department's Unclassified Cyber Security Program

Details of Finding ................................................................................................................1

Recommendations and Comments .......................................................................................8


Appendices

1.    Objective, Scope and Methodology ...........................................................................12

2.    Related Reports ..........................................................................................................14

3.    Management Comments .............................................................................................17
THE DEPARTMENT'S UNCLASSIFIED CYBER SECURITY PROGRAM
– 2012

PROGRAM               The Department of Energy (Department or DOE) had taken a
IMPROVEMENTS          number of steps over the past year to address previously identified
                      cyber security weaknesses and enhance its unclassified cyber
                      security program. For instance, we found that corrective actions
                      had been taken to resolve 40 of 56 weaknesses identified during
                      our evaluation of The Department's Unclassified Cyber Security
                      Program – 2011 (DOE/IG-0856, October 2011) related to
                      configuration and vulnerability management, access controls, and
                      system integrity. In addition, the Department made additional
                      changes to its cyber security program in response to the growing
                      number of cyber security threats. Specifically, the Department and
                      its National Nuclear Security Administration (NNSA):

                         •   Began development of the RightPath initiative, which is
                             designed to, among other things, enhance the Department's
                             cyber security posture by focusing on coordinating risk
                             mitigation and protection strategies across the organization;

                         •   Made improvements to cyber security training programs,
                             including taking corrective actions to address weaknesses
                             identified at one location during our prior year evaluation.
                             For instance, we noted that certain programs had
                             implemented a training exercise designed to help
                             employees understand the risks associated with e-mail
                             phishing attacks. At 1 location, more than 300 individuals
                             received follow-up training as a result of this exercise; and,

                         •   Continued implementation of a risk-based approach to
                             cyber security. For instance, several programs had begun
                             development of Risk Management Implementation Plans
                             required by Department Order 205.1B, Department of
                             Energy Cyber Security Program. The plans, once finalized
                             and implemented, are designed to provide a flexible
                             approach for assessing, responding to and monitoring cyber
                             security risks.

                      While these positive actions should help the Department to
                      improve its cyber security posture, we found that additional efforts
                      are needed to further enhance security over its unclassified
                      information systems and data.

Security Controls     Although the overall number of identified vulnerabilities decreased
and Risk Management   from 56 to 38 since our Fiscal Year (FY) 2011 review, we found
                      that the types and severity of weaknesses continued to persist and
                      remained consistent with prior years. Specifically, our review of
                      the Offices of the Under Secretary for Nuclear Security, Under


Page 1                                                                 Details of Finding
         Secretary for Science and Under Secretary of Energy organizations
         identified various control weaknesses related to access controls,
         vulnerability management, system integrity of web applications,
         planning for continuity of operations and change control
         management. Based on the results of our test work at 22 locations,
         including Headquarters, we identified 22 new weaknesses and
         noted that 16 weaknesses from our prior year's review remained
         unresolved, including 4 that were identified in FY 2010. In a
         number of instances, officials took action to correct certain
         vulnerabilities we discovered during our current evaluation shortly
         after we identified them. The weaknesses we identified are
         detailed in the remainder of our report.

                                  Access Controls

         While the Department had corrected 11 previously identified
         weaknesses related to access controls, we found that programs and
         sites continued to experience vulnerabilities in this area. Access
         controls consist of both physical and logical measures designed to
         protect information resources from unauthorized modification, loss
         or disclosure. Controls of this type must be strong and functional
         to ensure that only authorized individuals can gain access to
         networks or systems. During our current review, we noted 15
         weaknesses related to logical and physical access controls at 6
         locations reviewed. In particular:

            •   We identified 10 account management weaknesses at 5
                locations, including failure to adequately manage user
                access privileges and perform periodic management
                reviews of user accounts. For instance, three sites had not
                restricted access privileges to at least seven applications,
                including a site with two administrators who were granted
                unlimited access, thus providing the ability to input and
                modify transactions within the application. Furthermore,
                access privileges related to account establishment,
                modification, review, disablement and removal were not
                adequately managed;

            •   Internal vulnerabilities involving weak access controls in
                network services related to default or weak usernames and
                passwords existed at two sites reviewed. At one of the
                locations, a network server was configured to accept
                connections from any other system without the use of
                authentication or similar access controls, which could allow
                remote control of the affected system. At another site, we
                found two accounts with password management
                weaknesses;


Page 2                                                   Details of Finding
            •   Although one site had generally implemented physical
                access controls, including the authorization of user access
                and utilization of locked doors and card readers, officials
                had not adequately managed several of these physical
                access controls at its data center. Specifically, officials had
                not maintained and validated a current list of individuals
                authorized to access the data center nor reviewed access
                logs to detect any unauthorized physical access; and,

            •   At two sites, we identified segregation of duties
                weaknesses designed to help ensure that separation of
                functions exist over authorizing, processing, recording and
                reviewing changes to systems and information. For
                instance, system administrators were assigned additional
                roles not needed for their position that enabled them to
                improperly review and approve documents.

         In addition to the access control weaknesses identified above, our
         recent report on The Department of Energy's Implementation of
         Homeland Security Presidential Directive 12 (DOE/IG-0860,
         February 2012) identified that the Department had not fully
         implemented physical and logical access controls at several sites.
         Specifically, none of the sites reviewed had fully implemented
         physical and logical access controls in accordance with Homeland
         Security Presidential Directive 12.

                             Vulnerability Management

         The Department had taken action to correct vulnerability
         management weaknesses identified in FY 2011 at 14 locations.
         Our current review, however, discovered 11 weaknesses related to
         vulnerability management of desktops and servers at 8 locations.
         The weaknesses consisted of varying degrees of vulnerable
         applications and operating systems missing security updates and/or
         patches. As weaknesses were identified, we considered the
         implementation of compensating controls, as appropriate. In
         addition, while officials commented that they had accepted the
         risks associated with many of the vulnerabilities, they could not
         provide documentation to support a risk acceptance decision.
         Specifically:

            •   We found that 1,132 of 1,952 (58 percent) desktop systems
                were running operating systems and/or client applications
                without current security patches for known vulnerabilities.
                These applications were missing security patches for
                known vulnerabilities that had been released more than 3
                months prior to our testing, and in some cases up to 6

Page 3                                                     Details of Finding
                months. While the number of systems tested this year was
                less than the prior year, we noted that the percentage of
                desktop systems containing vulnerabilities significantly
                increased; and,

            •   At least 157 network systems were running operating
                systems and application support platforms without current
                security patches and/or security configurations for known
                vulnerabilities that were released more than 30 days prior
                to testing. In addition, we identified 41 network servers
                running operating system versions that were no longer
                supported by the vendor.

         Vulnerabilities were identified on servers supporting critical
         financial and non-financial applications and data. We noted that
         these vulnerabilities could have resulted in a compromise of
         business information or unauthorized access to critical application
         functionality and data, as well as loss or disruptions of critical
         operations.

                           Integrity of Web Applications

         Our performance testing found at least 29 web applications at 8
         locations – including financial, human resource and general
         support applications – that did not perform validation procedures
         to determine whether the form and content of input data was
         validated against an application's database. Effective validation
         procedures can ensure that changes made to information and
         programs are only allowed in a specified and authorized manner
         and that the system's operation is not impaired by deliberate or
         inadvertent unauthorized manipulation, such as software flaws and
         malicious code. During our testing, we found:

            •   Three locations were operating web applications that
                contained functional design flaws and did not properly
                validate input data. For example, at one of the sites, an
                application included a password change function that could
                allow an attacker to modify the password for any valid user
                account. In addition, another application did not perform
                validation procedures to prevent two users from colluding
                to obtain elevated privileges. By obtaining a higher
                privileged account, users could bypass controls within the
                application that enforce normal business processes;

            •   At 8 locations, we found 28 applications that accepted
                malicious input data that could be used to launch attacks
                against legitimate application users, which may result in

Page 4                                                   Details of Finding
                unauthorized access to the application. Such attacks,
                referred to as cross-site scripting attacks, could allow an
                attacker to compromise legitimate users' workstations and
                application login credentials. In 2011, a security industry
                report indicated that attacks such as these were the most
                commonly exploited security vulnerabilities for web
                applications; and,

            •   Six applications at three locations included vulnerable input
                validation techniques that could be used by an attacker to
                obtain unauthorized access to data within the database.

         Web applications that do not adequately protect access control
         functions are at risk of malicious attacks that could result in
         unauthorized access to application functionality and sensitive data
         stored in the application.

                                Contingency Planning

         We found that one site, as previously reported in FY 2011, had
         weaknesses related to its ability to ensure continuity of operations
         in the event of a service disruption. Although the processes at the
         site had improved, several control weaknesses continued to exist
         related to contingency planning and disaster recovery.
         Specifically, the site had taken initial steps to develop a business
         continuity/disaster recovery plan to define contingency and
         restoration requirements for its information systems, but had not
         implemented corrective actions. In addition, the site had
         postponed development of an overall business impact assessment
         to correlate specific information system components with the
         services that it provided and, based on that information, to
         characterize the consequences of a disruption to the system
         components. Absent effective continuity of operations planning,
         the risk of loss of critical information and data in certain types of
         disasters may be increased.

                            Change Control Management

         We identified change control issues at one location reviewed.
         Specifically, although the site had developed an overall
         configuration management process that required all change
         requests to contain elements such as change notification and
         justification, risk analysis, test and recovery plans, and mitigation
         method and approvals, we discovered changes that were
         inconsistent with the process. For example, we noted that none of
         the 15 sampled change requests had test plans, 8 change requests
         did not contain a risk assessment, 8 change requests did not contain

Page 5                                                     Details of Finding
                            approvals, and 1 request had not been properly documented and/or
                            maintained. Controls of this type are an integral component of a
                            strong security policy and help to ensure computer applications
                            and systems are consistently configured with minimum security
                            standards to prevent and protect against unauthorized
                            modifications.

Policies and Procedures The weaknesses identified occurred, in part, because Department
and Performance         elements had not ensured that cyber security requirements were
Monitoring              fully developed and implemented. In addition, programs and sites
                        did not always utilize effective performance monitoring activities
                        to ensure that appropriate security controls were in place.

                                          Cyber Security Policies and Procedures

                            The cyber security control weaknesses we identified were due, in
                            part, to inadequate development and implementation of security
                            control processes. In particular, many sites developed policies and
                            procedures that did not always satisfy Federal or Department
                            security requirements. For instance, we noted that policies at
                            certain sites were not aligned with Federal requirements related to
                            access controls and configuration management. Officials at one
                            site explained that Department Order 205.1B was not applicable to
                            its contract. Although the previous Order had been removed in
                            2010, we noted that the site was not exempt from Federal security
                            requirements, such as those issued by the Office of Management
                            and Budget (OMB) and the National Institute of Standards and
                            Technology (NIST). Another site had not established policies and
                            procedures to disable inactive accounts on certain systems,
                            resulting in over 100 inactive accounts that had not been accessed
                            for more than 6 months.

                            Even when in place, policies and procedures were not always fully
                            implemented. For example, many of the sites reviewed had not
                            followed program or site-level patch management policies and
                            procedures to ensure security updates were consistently applied in
                            a timely manner. In addition, despite existing policies, sites had
                            not consistently followed such policies for terminating or disabling
                            user access. In one instance, although a site's policies required
                            deletion or deactivation of any user account that had been inactive
                            for 3 months, we noted an administrator's account had not been
                            removed despite over 8 months of inactivity.

                                                 Performance Monitoring

                            As noted in prior evaluations, the Department and NNSA had not
                            always ensured that performance monitoring activities were

Page 6                                                                      Details of Finding
         effective. Many of the programs and sites reviewed had not fully
         implemented an effective process to ensure security patch
         management processes for desktops, network devices and
         applications were working as designed. For example, at eight
         locations we found vulnerability management programs were not
         fully effective in remediating missing security updates for critical
         vulnerabilities in operating systems and applications installed on
         desktop and/or network systems. Additionally, many of the web
         application vulnerabilities we identified occurred because
         programs and sites had not implemented effective processes to
         ensure that controls were in place to identify and prevent
         application integrity issues. While certain locations had taken
         corrective action to address vulnerabilities identified during our
         prior year evaluation, we continued to identify similar weaknesses
         at many of the locations reviewed. As the Department continues
         its efforts to implement contractor assurance and risk-based
         processes for monitoring the effectiveness of programs, it is
         essential that adequate performance monitoring mechanisms are in
         place.

         We also found that, contrary to requirements, Plans of Action and
         Milestones (POA&Ms) were not always effectively used to report,
         prioritize and track cyber security weaknesses through
         remediation. In particular, while organizations were required to
         submit POA&Ms to the Office of the Chief Information Officer
         (OCIO) on a quarterly basis, we found that organizations often
         submitted POA&Ms late or not at all. For example, one program
         did not submit its second quarter POA&Ms on time, so it
         combined the second and third quarter submissions. Another
         program had not submitted second quarter POA&Ms for any of its
         field sites. In addition:

            •   Although many of the sites reviewed tracked weaknesses at
                a local level, we found that 28 of 56 cyber security
                deficiencies identified during our FY 2011 evaluation were
                not reported in the Department's POA&Ms maintained by
                the OCIO and were not reported to OMB, as required. In
                addition, POA&Ms did not contain all cyber security
                weaknesses identified in numerous security related Office
                of Inspector General and U.S. Government Accountability
                Office reports. The official responsible for consolidating
                and submitting all POA&Ms to OMB stated that while
                programs and sites were informed of the missing cyber
                security weaknesses, they were never added to the
                POA&Ms;




Page 7                                                    Details of Finding
                     •    Consistent with our FY 2011 evaluation, we determined
                          that 276 of 707 (39 percent) open milestones captured in
                          the POA&Ms were beyond the projected remediation date.
                          In particular, we noted that 74 open milestones were at
                          least 1 year beyond the estimated remediation date; and,

                     •    We identified several weaknesses that continued to persist
                          for extended periods ranging from 2 to over 10 years. An
                          official from one organization stated that cyber security had
                          not previously been a primary concern for the program and
                          funds were not adequately obtained to mitigate weaknesses,
                          but noted that he was working to correct the deficiencies.

                  NIST noted that POA&Ms are an important mechanism used to
                  identify and manage progress towards eliminating gaps between
                  required security controls and those that are actually in place.

Information and   Absent improvements to its cyber security program, such as
Systems at Risk   adherence to risk-based management policies and adopting
                  processes to ensure security controls are fully implemented, there
                  is an increased risk of compromise and/or loss, modification and
                  non-availability of the Department's systems and the information
                  residing within them. Although many sites had implemented
                  certain compensating controls, such as automated logging, to
                  mitigate the risk associated with vulnerabilities, an attacker could
                  potentially execute attacks against the vulnerable systems, key
                  applications and user desktops by using custom attacks.
                  Furthermore, improvements to the POA&Ms process could enable
                  management to better understand the cyber security risks within
                  the Department and help prioritize investments to ensure adequate
                  protection of data and information systems. In addition, effective
                  remediation of the weaknesses identified during our review should
                  aid the Department as it continues its transition to continuous
                  monitoring of its cyber security program.

RECOMMENDATIONS   To improve the Department's unclassified cyber security program
                  and to correct the weaknesses identified in this report, we
                  recommend that the Under Secretary for Nuclear Security, the
                  Acting Under Secretary of Energy, and the Acting Under Secretary
                  for Science, in coordination with the Department's and NNSA's
                  Chief Information Officers:

                         1. Correct, through the implementation of appropriate
                            controls, the weaknesses identified within this report;

                         2. Ensure that procedures and processes are developed, as
                            needed, and are implemented in accordance with Federal

Page 8                                                            Recommendations
                            and Department requirements to adequately secure
                            systems and applications;

                        3. Ensure that effective performance monitoring practices
                           are implemented to assess overall performance for
                           protecting information technology resources; and,

                        4. Ensure that POA&Ms are developed and used to
                           prioritize and track remediation of all cyber security
                           weaknesses requiring corrective actions.

MANAGEMENT         Department and NNSA management concurred with each of the
REACTION AND       report's recommendations and indicated that corrective actions
AUDITOR COMMENTS   would be identified and tracked in the appropriate Department
                   POA&Ms. Department management commented that each of the
                   Senior Department Management Organizations are responsible for
                   identifying and implementing policies and procedures to secure
                   information, systems and applications in accordance with the
                   Department's Risk Management Approach. In addition, Department
                   management stated that each of the Senior DOE Management
                   Organizations were responsible for ensuring effective performance
                   monitoring. Further, management noted that the OCIO will take
                   action to correct weaknesses identified in our report related to the
                   POA&Ms process.




Page 9                                         Recommendations and Comments
Appendix 1

OBJECTIVE     To determine whether the Department of Energy's (Department)
              unclassified cyber security program adequately protected its data
              and information systems.

SCOPE         The evaluation was performed between February 2012 and
              November 2012, at numerous locations under the purview of the
              Under Secretary for Nuclear Security, Under Secretary of Energy,
              and Under Secretary for Science. Specifically, we performed an
              assessment of the Department's unclassified cyber security
              program. The evaluation included a limited review of general and
              application controls in areas such as entity-wide security planning
              and management, access controls, application software
              development and change controls, and service continuity. Our
              work did not include a determination of whether vulnerabilities
              found were actually exploited and used to circumvent existing
              controls. The Health, Safety and Security Office of Enforcement
              and Oversight performed a separate evaluation of the Department's
              information security program for national security systems.

METHODOLOGY   To accomplish our objective, we:

                   •   Reviewed Federal regulations and Department directives
                       pertaining to information and cyber security such as the
                       Federal Information Security Management Act of 2002
                       and Department Order 205.1B, Department of Energy
                       Cyber Security Program;

                   •   Reviewed applicable standards and guidance issued by
                       the National Institute of Standards and Technology
                       (NIST) for the planning and management of system and
                       information security, such as Special Publications 800-
                       37, Revision 1, Guide for Applying the Risk Management
                       Framework to Federal Information Systems: A Security
                       Life Cycle Approach and 800-53, Recommended Security
                       Controls for Federal Information Systems and
                       Organizations;

                   •   Obtained and analyzed documentation from Department
                       programs and selected sites pertaining to the planning,
                       development and management of cyber security related
                       functions such as cyber security plans, Plans of Action
                       and Milestones and budget information;

                   •   Held discussions with officials from the Department and
                       the National Nuclear Security Administration (NNSA);




Page 10                                   Objective, Scope and Methodology
Appendix 1 (continued)


                         •   Assessed controls over network operations and systems to
                             determine the effectiveness related to safeguarding
                             information resources from unauthorized internal and
                             external sources;

                         •   Evaluated selected Headquarters' offices and field sites in
                             conjunction with the annual audit of the Department's
                             Consolidated Financial Statements, utilizing work
                             performed by KPMG, LLP (KPMG), the Office of
                             Inspector General (OIG) contract auditor. OIG and
                             KPMG work included analysis and testing of general and
                             application controls for systems, as well as vulnerability
                             and penetration testing of networks; and,

                         •   Evaluated and incorporated the results of other cyber
                             security review work performed by OIG, KPMG, the
                             Department's Office of Independent Oversight, the U.S.
                             Government Accountability Office, and internal
                             Department studies.

                    We conducted this evaluation in accordance with generally
                    accepted Government auditing standards. Those standards require
                    that we plan and perform the review to obtain sufficient,
                    appropriate evidence to provide a reasonable basis for our findings
                    and conclusions based on our objective. We believe the evidence
                    obtained provides a reasonable basis for our findings and
                    conclusions based on our objective. Accordingly, we assessed
                    significant internal controls and compliance with laws and
                    regulations to the extent necessary to satisfy the audit objective. In
                    particular, we assessed the Department's implementation of the
                    GPRA Modernization Act of 2010 and determined that it had
                    established performance measures for its information and cyber
                    security program. Because our evaluation was limited, it would
                    not necessarily have disclosed all internal control deficiencies that
                    may have existed at the time of our audit. We did not solely rely
                    on computer-processed data to satisfy our objective. However,
                    computer assisted audit tools were used to perform scans of
                    various networks and drives. We validated the results of the scans
                    by confirming the weaknesses disclosed with responsible on-site
                    personnel and performed other procedures to satisfy ourselves as to
                    the reliability and competence of the data produced by the tests. In
                    addition, we confirmed the validity of other data, when
                    appropriate, by reviewing supporting source documents.

                    An exit conference was held with Department and NNSA
                    management on November 6, 2012.


Page 11                                          Objective, Scope and Methodology
Appendix 2 (continued)

                                    RELATED REPORTS

Office of Inspector General Reports

   •   Special Report on Inquiry into the Security Breach at the National Nuclear Security
       Administration's Y-12 National Security Complex (DOE/IG-0868, August 2012)
       Following an intrusion to the area surrounding the Y-12 National Security Complex's (Y-
       12) Highly Enriched Uranium Materials Facility (HEUMF), the Office of Inspector
       General (OIG) initiated a joint criminal investigation of the trespass and within days of
       the event commenced a special inquiry into the circumstances surrounding the breach.
       We found that the Y-12 security incident represented multiple system failures on several
       levels including troubling displays of ineptitude in responding to alarms, failures to
       maintain critical security equipment, over reliance on compensatory measures,
       misunderstanding of security protocols, poor communications, and weaknesses in
       contract and resource management. Further, contractor governance and Federal oversight
       failed to identify and correct early indicators of these multiple system breakdowns. As a
       result, these issues, when combined, directly contributed to an atmosphere in which the
       trespassers could gain access to the protected security area directly adjacent to one of the
       Nation's most critically important and highly secured weapons-related facilities.

   •   Audit Report on Management of Bonneville Power Administration's Information
       Technology Program (DOE/IG-0861, March 2012) Although the Bonneville Power
       Administration (Bonneville) had taken steps to address previously identified cyber
       security concerns, our review identified new concerns in the areas of cyber security,
       project management and procurement of information technology (IT) resources.
       Specifically, we identified a significant number of high-risk weaknesses in the areas of
       access controls, patch management and validation of user input. In addition, operational
       security controls had not been fully implemented, having identified issues with
       configuration management, least privilege, and contingency and security planning. These
       issues were due, in part, to inadequate implementation of policies and procedures related
       to security and project management and inadequate planning of resource requirements.
       In addition, we found that Bonneville's Office of the Chief Information Officer did not
       have authority over the entire IT program, including certain cyber security and
       procurement functions.

   •   Audit Report on The Department's Configuration Management of Non-Financial Systems
       (OAS-M-12-02, February 2012) The Department of Energy (Department) had not
       implemented sufficient controls over its configuration management processes for non-
       financial systems. The issues identified during our review were similar to those noted for
       financial systems within our report of The Department's Unclassified Cyber Security
       Program - 2011 (DOE/IG-0856, October 2011). Specifically, security patches designed
       to mitigate system vulnerabilities had not been applied in a timely manner for desktops,
       applications and servers. In addition, organizations and sites reviewed had not always
       followed effective procedures to ensure that changes to systems and applications were
       properly tested and approved prior to implementation.




Page 12                                                    Objective, Scope and Methodology
Appendix 2 (continued)

   •   Audit Report on The Department of Energy's Implementation of Homeland Security
       Presidential Directive 12 (DOE/IG-0860, February 2012) The Department had not fully
       implemented physical and logical access controls in accordance with Homeland Security
       Presidential Directive 12 (HSPD-12) requirements despite 7 years of effort and
       expenditures of more than $15 million. In addition, the Department had not issued
       credentials to many uncleared contractor personnel at its field sites. Such conditions
       existed due to the lack of a coordinated approach among programs and sites related to
       implementation of HSPD-12 requirements existed. In particular, we found that guidance
       provided by management was fragmented and often inadequate to meet the goals of the
       initiative. Further, efforts suffered from a lack of coordination among program and sites
       to determine the cost, scope and schedule of work required to implement HSPD-12 while
       several programs and sites had not established budgets in an attempt to obtain funding for
       HSPD-12 activities.

   •   Audit Report on Management Challenges at the Department of Energy (DOE/IG-0858,
       November 2011) Based on the work performed during Fiscal Year (FY) 2011, we
       identified eight areas that remained as management challenges for FY 2012 including
       cyber security.

   •   Evaluation Report on The Department's Unclassified Cyber Security Program – 2011
       (DOE/IG-0856, October 2011). The OIG found that only 11 of the 35 cyber security
       weaknesses identified in our FY 2010 review had corrective actions completed, while the
       number of weaknesses identified in FY 2011 represented a 60 percent increase over the
       prior review. Opportunities were identified for improvement in areas such as access
       controls, vulnerability management, web application integrity, contingency planning,
       change control management, and cyber security training. The weaknesses identified
       occurred, in part, because Department elements had not ensured that cyber security
       requirements included all necessary elements and were properly implemented. In
       addition, program elements did not always utilize effective performance monitoring
       activities to ensure that appropriate security controls were in place.

Government Accountability Office Reports

   •   Information Security: Cyber Threats Facilitate Ability to Commit Economic Espionage
       (GAO-12-876T, June 2012)

   •   Cybersecurity: Threats Impacting the Nation (GAO-12-666T, April 2012)

   •   IT Supply Chain: Additional Efforts Needed by National Security-Related Agencies to
       Address Risks (GAO-12-579T, March 2012)

   •   IT Supply Chain: National Security-Related Agencies Need to Better Address Risks
       (GAO-12-361, March 2012)

   •   Critical Infrastructure Protection: Cybersecurity Guidance Is Available, but More Can
       Be Done to Promote Its Use (GAO-12-92, December 2011)



Page 13                                                   Objective, Scope and Methodology
Appendix 2 (continued)

  •   Information Security: Weaknesses Continue Amid New Federal Efforts to Implement
      Requirements (GAO-12-137, October 2011)

  •   Federal Chief Information Officers: Opportunities Exist to Improve Role in Information
      Technology Management (GAO-11-634, September 2011)

  •   Cybersecurity: Continued Attention Needed to Protect Our Nation's Critical
      Infrastructure (GAO-11-865T, July 2011)

  •   Social Media: Federal Agencies Need Policies and Procedures for Managing and
      Protecting Information They Access and Disseminate (GAO-11-605, June 2011)

  •   GAO's 2011 High-Risk Series: An Update (GAO-11-394T, February, 2011)

  •   High-Risk Series: An Update (GAO-11-278, February 2011)




Page 14                                                Objective, Scope and Methodology
Appendix 3

             MANAGEMENT COMMENTS




Page 15                            Management Comments
Appendix 3 (continued)




Page 16                  Management Comments
Appendix 3 (continued)




Page 17                  Management Comments
Appendix 3 (continued)




Page 18                  Management Comments
Appendix 3 (continued)




Page 19                  Management Comments
                                                                    IG Report No. DOE/IG-0877

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
